No. 20-579

In the Supreme Court of the United States
ZIMMIAN TABB, PETITIONER,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with copies
of the foregoing REPLY BRIEF FOR THE PETITIONER, via e-mail, this 2nd day
of March 2021. All parties had previously consented to electronic service consistent
with this Court’s order of April 15, 2020
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave., NW,
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
I declare under penalty of perjury the foregoing is true and correct. Executed on
March 2, 2021.

/s John P. Elwood_____
John P. Elwood
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com
March 2, 2021

